TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                  Processes to Resolve Business Taxpayers’
                      Undeliverable Refunds Need to Be
                                Strengthened



                                         August 24, 2007

                              Reference Number: 2007-30-111




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.

 Redaction Legend:
 1 = Tax Return/Return Information

 Phone Number | 202-927-7037
 Email Address | Bonnie.Heald@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                                  DEPARTMENT OF THE TREASURY
                                                         WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                                 August 24, 2007


 MEMORANDUM FOR COMMISSIONER, WAGE AND INVESTMENT DIVISION
                CHIEF INFORMATION OFFICER

 FROM:                         Michael R. Phillips
                               Deputy Inspector General for Audit

 SUBJECT:                      Final Audit Report – Processes to Resolve Business Taxpayers’
                               Undeliverable Refunds Need to Be Strengthened (Audit #200630030)

 This report presents the results of our review to identify the conditions creating Business Master
 File credit balance accounts and determine whether there are areas where the Internal Revenue
 Service (IRS) could improve resolution of these accounts.1 This audit focused on accounts with
 undeliverable refunds to determine how they were affected by IRS processing of business
 taxpayers’ address changes. Because undeliverable refunds include both checks returned by the
 United States Postal Service and checks not cashed by taxpayers within a year, we also attempted
 to determine whether the refunds had been issued in error.

 Impact on the Taxpayer
 Some business taxpayers’ refunds were undeliverable because the addresses on their accounts
 were different from the addresses on the taxpayers’ most current returns or other documents in
 the IRS’ possession. We determined that the process to resolve business taxpayers’
 undeliverable refunds needs to be improved to ensure that account addresses are corrected and
 that refunds are reissued only when better addresses are identified. We found that many
 taxpayers’ refunds went undelivered several times. Improper resolution of credit balance
 accounts can result in significant burden to taxpayers who may not receive refunds timely and
 increased interest costs to the Federal Government.


 1
  The Business Master File is the IRS database that consists of Federal tax-related transactions for business accounts.
 The accounts are made up of modules for each tax period for each type of tax (employment taxes, income taxes on
 businesses, excise taxes, estate tax, income taxes for estates and trusts, etc). An account module reflects a credit
 balance when payments applied to that type tax and period are greater than the tax, penalties, and interest assessed.
               Processes to Resolve Business Taxpayers’ Undeliverable Refunds
                                  Need to Be Strengthened




Synopsis
As of December 31, 2005, the Business Master File contained approximately 11,000 account
modules for which a change of address had been entered and the module reflected an
undeliverable refund and a credit balance greater than $1,000. Credit balances on these accounts
totaled about $148 million. Undeliverable refunds can be (1) refund checks returned as
undeliverable by the United States Postal Service or (2) refund checks not cashed within a year
and credited back to the taxpayers’ accounts after 14 months.
We selected a statistical sample of 338 of these account modules and determined the IRS had not
taken sufficient actions to correct addresses on some of the modules. In 25 percent of our
sampled cases, the IRS had in its possession tax returns or other documents with more current
address information than that reflected on the Business Master File. This information could have
been used to ensure the taxpayers received refunds to which they were entitled. Also, the IRS
missed opportunities to assess the proper tax and resolve incorrect credits. As a result, we
estimated credits totaling approximately $10.4 million on 440 account modules are potentially
incorrect.
In addition, because of the method it used to perfect certain address information, we estimate the
IRS reissued about 8,300 undeliverable refunds totaling approximately $85 million during a
5-week period in September and October 2006 without obtaining new addresses. Many of these
reissued refunds were for older accounts, some over 20 years old. There is the potential for loss
or theft of funds when refunds are reissued to old or incorrect addresses; however, the full effects
will not be known for at least 1 year. At the time of our review, 117 (38 percent) of the
304 refunds reissued in our samples had been returned by the United States Postal Service or by
taxpayers.
Finally, due to a system problem, the IRS may have paid unnecessary interest totaling
approximately $2.6 million on 260 refunds reissued from accounts with previously undelivered
refunds without first determining whether additional interest was due. Generally, interest should
not be recomputed on an undeliverable refund when it is reissued unless the refund was
undeliverable due to some fault of the IRS. Almost 1,400 modules (with credit balances of
almost $12 million) could be affected by the system problem that caused refunds to be
inappropriately reissued with additional interest. In 17 cases where the refund was already
reissued, no interest was paid on the new refunds. Of these 17 taxpayers, 15 were entitled to at
least the interest computed on the original refunds, which totaled about $8,000.




                                                                                                   2
              Processes to Resolve Business Taxpayers’ Undeliverable Refunds
                                 Need to Be Strengthened




Recommendations
We recommended the Commissioner, Wage and Investment Division, review Business Master
File undeliverable refunds to determine when it would be beneficial for employees to verify
addresses reported on tax returns against IRS records; perform adequate research on accounts
with uncashed refund checks to determine whether credits were claimed, additional taxes are
due, or payments may have been misapplied; coordinate with the Chief Information Officer to
address the design of the program that perfects Business Master File street addresses to ensure it
does not reissue previously undelivered refunds; and ensure the automatic transfer of credit
balances and subsequent reinstatement of the credits does not cause an automatic recomputation
of interest on reissued refunds.

Response
IRS management agreed with three of the four recommendations and disagreed with one
recommendation. Management agreed to review the sample cases to determine how often a
better address is found for consideration of procedural changes, and to determine whether
additional Internal Revenue Manual procedures need to be added or reinforced on accounts with
uncashed refund checks. Programmers are currently working to correct the problem with the
program that was intended to prevent the payment of additional interest on reissued
undeliverable refunds.
IRS management disagreed with the specific recommendation to perfect Business Master File
street addresses using a transaction code other than the code normally used to record address
changes, but proposed an alternative solution. Rather than creating a new transaction code for
any future Business Master File address-hygiene efforts, the address change transaction code will
be used and combined with a unique date so the Business Master File will recognize the
transactions as coming from the cleanup database and will not release the undeliverable refund
freeze. In our opinion, this alternative corrective action should correct the condition cited.
Management’s complete response to the draft report is included as Appendix V.
Copies of this are also being sent to the IRS managers affected by the report recommendations.
Please contact me at (202) 622-6510 if you have questions or Daniel R. Devlin, Assistant
Inspector General for Audit (Small Business and Corporate Programs), at (202) 622-5894.




                                                                                                     3
                    Processes to Resolve Business Taxpayers’ Undeliverable Refunds
                                       Need to Be Strengthened




                                             Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 2
          Actions Were Insufficient to Correct Addresses on Taxpayers’
          Accounts .......................................................................................................Page 2
                    Recommendation 1:..........................................................Page 3

          Opportunities to Assess the Proper Tax and Resolve Incorrect
          Credits Were Missed.....................................................................................Page 3
                    Recommendation 2:..........................................................Page 4

          Thousands of Undeliverable Refunds Were Reissued Without
          Obtaining New Addresses.............................................................................Page 5
                    Recommendation 3:..........................................................Page 6

          Unnecessary Interest May Have Been Paid on Refunds Reissued
          Without Determining Whether Additional Interest Was Due.......................Page 6
                    Recommendation 4:..........................................................Page 7


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................Page 8
          Appendix II – Major Contributors to This Report ........................................Page 10
          Appendix III – Report Distribution List .......................................................Page 11
          Appendix IV – Outcome Measures...............................................................Page 12
          Appendix V – Management’s Response to the Draft Report .......................Page 15
        Processes to Resolve Business Taxpayers’ Undeliverable Refunds
                           Need to Be Strengthened




                        Abbreviations

BMF               Business Master File
IRS               Internal Revenue Service
TIGTA             Treasury Inspector General for Tax Administration
USPS              United States Postal Service
                 Processes to Resolve Business Taxpayers’ Undeliverable Refunds
                                    Need to Be Strengthened




                                             Background

As of December 2005, there were approximately 1.2 million taxpayer account modules on the
Internal Revenue Service (IRS) Business Master File (BMF) that had remained in a credit
balance status for more than a year.1 The credit balances on these accounts totaled over
$20 billion. This indicates the taxpayers failed to file tax returns, additional taxes should have
been assessed, payments were misapplied, or taxpayers are due refunds. Generally, an account
should not remain in a credit balance status for a long period.
Included in these account modules were about 143,000 modules with “undeliverable” refunds
and credit balances totaling in excess of $326 million. More than half the dollars are attributable
to approximately 14,000 account modules with credit balances greater than $1,000.
Undeliverable refunds can be (1) refund checks returned as undeliverable by the United States
Postal Service (USPS) or (2) refund checks not cashed within a year and credited back to the
taxpayers’ accounts after 14 months.
When an undeliverable refund is credited back to the taxpayer’s account for either reason, a
notice is issued requesting the taxpayer to provide a current address or to call the IRS. When a
taxpayer contacts the IRS and provides a current address, the check is reissued. If an IRS
error(s) resulted in the taxpayer not receiving the refund, the taxpayer can request that interest be
paid on the refund amount.
This audit focused on accounts with undeliverable refunds to determine how they were affected
by IRS processing of business taxpayers’ address changes. We included only those accounts that
reflected a change of address. Because undeliverable refunds include both checks returned by
the USPS and checks not cashed by taxpayers within a year, we also attempted to determine
whether the refunds had been issued in error.
This review was performed at the IRS office in Holtsville, New York, and included analyses of
taxpayer accounts nationwide. We also discussed policy and procedures with IRS personnel
from Customer Account Services, Wage and Investment Division, in the following offices:
Ogden, Utah; Covington, Kentucky; Philadelphia, Pennsylvania; and Lanham, Maryland. The
audit was conducted in accordance with Government Auditing Standards. Detailed information
on our audit objective, scope, and methodology is presented in Appendix I. Major contributors
to the report are listed in Appendix II.


1
 The BMF is the IRS database that consists of Federal tax-related transactions for business accounts. The accounts
are made up of modules for each tax period for each type of tax (employment taxes, income taxes on businesses,
excise taxes, estate tax, income taxes for estates and trusts, etc). An account module reflects a credit balance when
payments applied to that type tax and period are greater than the tax, penalties, and interest assessed.
                                                                                                              Page 1
                 Processes to Resolve Business Taxpayers’ Undeliverable Refunds
                                    Need to Be Strengthened




                                      Results of Review

Actions Were Insufficient to Correct Addresses on Taxpayers’
Accounts
On December 31, 2005, the BMF contained approximately 11,000 account modules for which a
change of address had been entered and the module reflected an undeliverable refund and a
credit balance greater than $1,000. Credit balances on
these accounts totaled about $148 million. The IRS
should ensure money collected in excess of a taxpayer’s       The IRS had in its possession
legal tax liability is timely refunded to the taxpayer. We    documents with more current
                                                             address information that could
selected a statistically valid sample of 338 of 7,558 of
                                                                have been used to correct
these account modules and determined that, for 85 cases          addresses on taxpayers’
(25 percent),2 the IRS had in its possession tax returns or            accounts.
other documents with more current address information
than the information reflected on the BMF. This
information could have been used to ensure the taxpayers received refunds to which they were
entitled.
The addresses on 61 percent of these cases (52 of 85) contained a third party “in care of” line,3
but the “in care of” information on the BMF was different from that shown on the most current
tax returns. Most (69 percent) of these 52 cases were trusts on which the addresses are almost
always for a fiduciary or some other third party.
In September 2001, the Treasury Inspector General for Tax Administration (TIGTA) reported
the IRS’ computer records did not reflect the names contained in the third-party addresses as
shown on 20 percent of the returns for 7.8 million BMF taxpayers with updated address
information in 1998, 1999, and 2000.4 This was caused, in part, by systemic limitations of the
electronic and paper return processing systems. IRS management agreed to implement
programming changes in January 2004, but the changes were not implemented due to resource
constraints. The IRS did use a workaround for paper returns and ultimately made the
programming change for paper returns processed with address changes after January 2006.
However, as illustrated by our sample, many addresses with erroneous or incomplete “in care of”


2
  See Appendix I and Appendix IV for details concerning our audit sampling.
3
  The address on a tax return is sometimes that of a third party (i.e., a person or firm other than the taxpayer).
Correspondence and refunds should be mailed “in care of” the third party at the address reported.
4
  Improvements in Recording Third Party Addresses From Tax Returns Will Reduce Undeliverable Business Mail
(Reference Number 2001-30-168, dated September 2001).
                                                                                                             Page 2
lines remain uncorrected. For the remaining 33 of 85 error cases in our sample, the BMF
reflected addresses that were different f h m those on the taxpayers' most current ta% returns or
other documents in the IRS' possession, such as a letter or form signed by the taxpayer or his or
her representative.
Because the IRS is liable for additional interest if it causes refunds to be undeliverable, interest is
accruing.on undeliverable refimds mailed to incorrect or incomplete addresses due to IRS
systemic problems or incomplete research. For example, a 3-year old refund was originally              .
issued with interest of about $50,000 and recently reissued with interest of $140,000.'

Recommendation
Recommendation 1: The Commissioner, Wage and Investment Division, should review
BMF undeliverable refunds to determine when it would be beneficial for employees to verify
addresses reported on tax returns against IRSrecords.
         Management's Response: IRS management agreed with the recommendation and
         will review the sampled cases to determine how often a better address is found. If the
         results provide productive address information, management will consider procedural
         changes.

Opportunities to Assess the Proper Tax and Resolve Incorrect Credits
Were Missed
During our research of undeliverable refunds, we found information indicating that (1) additional
assessments should have been made or (2) funds were incorrectly credited to the taxpayers'
accounts. 1                                                                                                          7


The IRS is responsible for assessing the proper amount of tax on each taxpayer's
account. During analyses of the 338 account modules included in our sample, we found
22 (6.5 percent) modules had incorrect credits totaling approximately $3 million that should have
been identified and corrected by the IRS. Included in these cases were the following:




 This example is included to demonstrate the effect. Actual numbers were not used in order to protect the
taxpayer's privacy.
                                                                                                            Page 3
          Fifteen modules on which assessments should have been posted but were not. The
          assessment statute of limitations was close to expiring for two of these modules; we
          refened them to the appropriate IRS function for a prompt assessment.
          Two modules on which erroneous credits should have been reversed. One module had a
          credit for Federal income tax withheld posted; the other had an Advance Earned Income

                                                                I
          Three modules on which employment taxes had been paid but not reported on the
          applicable tax returns. We were able to determine b m other documents these taxes
          were due.
          Two accounts in which returns for different tax ~eriods
          were erroneouslv posted to the account modules.
                                                                         We estimate credits
                                                                       totaling approximately
                                                                           $10.4 million in
                                                                        440 account modules

                                                                             incorrect.
When a refund is returned as undeliverable, the IRS issues a
notice to the taxpayer at the address recorded on the BMF but usually takes no other action
unless the taxpayer contacts the IRS. Based on our sample results, we estimate credits totaling
approximately $10.4 million in 440 account modules may be in~orrect.~      The IRS missed
opportunities to assess the proper taxes and resolve these incorrect credits. Our samples included
account modules that remained unresolved for more than 20 years, although many had refunds
issued multiple times. Federal Government funds could be lost because there is a statute of
limitations for assessment of taxes on these accounts.

Recommendation
Recommendation 2: The Commissioner, Wage and Investment Division, should ensure
employees perform adequate research on accounts with uncashed refund checks to determine
whether credits were claimed, additional taxes are due, or payments may have been misapplied.
This research should be accomplished before the assessment statute of limitations expires on the
accounts and before the tax returns and other documents are destroyed.
          Management's Response: IRS management agreed with the recommendation. They
          stated that current Internal Revenue Manual procedures are in place to address this issue
          and that IRS functions are instructed to coordinate with each other to ensure that actions
          taken on accounts will result in correct refund amounts. However, management will

6
    See Appendix IV for details concerning k.
                                            estimate.
                                                                                             Page 4
                   Processes to Resolve Business Taxpayers’ Undeliverable Refunds
                                      Need to Be Strengthened



           complete a review of the BMF returns that the TIGTA identified where credits were
           missed or payments not applied to determine if procedures need to be added or
           reinforced.

Thousands of Undeliverable Refunds Were Reissued Without
Obtaining New Addresses
During a 5-week period in September and October 2006, the IRS reissued BMF undeliverable
refunds without obtaining new addresses. We found that 304 (75 percent) of 408 modules in our
samples were among those with reissued refunds.7 Normally, the IRS does not reissue an
undeliverable or uncashed refund check (greater than a specific amount) unless the taxpayer
contacts the IRS or changes his or her address with the IRS or USPS. These undelivered refunds
are vulnerable to theft or misuse because they represent amounts that may not be missed by
taxpayers if they are misappropriated.
In an effort to perfect the addresses of some accounts on the BMF, the IRS corrected certain
minor errors on the file; for example, it added “St” or “Ave” to an address when recognized to be
missing. Address changes are input to taxpayers’ accounts
using specific computer transaction codes. Certain                   The IRS reissued an
transaction codes update address information without               estimated 8,300 refunds
causing a refund to be released, while others update address        totaling approximately
information and cause refunds to be released.                      $85 million on accounts
                                                                                without obtaining new
If the updated address information does not represent a                  addresses.
significant change, employees should use one of the
transaction codes that will not cause a refund to be generated. However, for this address
cleanup, the IRS used a transaction code that allowed taxpayers’ credit balances to refund. This
transaction code posted to all BMF accounts reviewed (except the few with a foreign address).
We estimate about 8,300 refunds totaling approximately $85 million were reissued using this
transaction code.
Many of these reissued refunds were for older accounts, some over 20 years old. There is the
potential for loss or theft of funds when large numbers of refunds are reissued to old or incorrect
addresses. In addition, this action results in increased IRS workload. At the time of our review,
117 (38 percent) of the 304 refunds reissued by the BMF cleanup in our samples had been
returned by the USPS or by taxpayers. We cannot determine what happened to those that were
not returned. The full effects will not be known for at least 1 year. In addition, if these refunds
had not been reissued, some of the undeliverable refunds would have been sent to correct
addresses when tax returns reporting address changes were processed in 2006 under the new
program changes made for the “in care of” line.

7
    The 408 modules included our 338 sample modules plus another statistically valid sample of 70 modules.
                                                                                                             Page 5
                  Processes to Resolve Business Taxpayers’ Undeliverable Refunds
                                     Need to Be Strengthened



Recommendation
Recommendation 3: The Commissioner, Wage and Investment Division, should coordinate
with the Chief Information Officer to ensure the IRS uses the ZIP Code perfection transaction
code or a new code to perfect BMF street addresses rather than the address change transaction
code normally used to record address changes reported to the IRS or the USPS by taxpayers.
         Management’s Response: IRS management disagreed with the specific
         recommendation, but proposed an alternative solution. Rather than creating a new
         transaction code, the address change transaction code will be used and combined with a
         unique date so the BMF will recognize the transaction as coming from the cleanup
         database and not release the undeliverable refund freeze.
         Office of Audit Comment: Management’s proposed action should correct the
         condition cited.

Unnecessary Interest May Have Been Paid on Refunds Reissued
Without Determining Whether Additional Interest Was Due
The IRS may have paid unnecessary interest on 260 refunds reissued over the last 6 years from
accounts with previously undelivered refunds. Most (224 of 260) were refunds reissued by the
BMF address cleanup. Generally, interest should not be recomputed on an undeliverable refund
when it is reissued unless the refund was undeliverable due to some fault of the IRS.
Interest was inappropriately computed on reissued refunds because of a system error that
automatically computed interest to the new refund date when dormant credit balances were
removed from taxpayers’ account modules and later reinstated to the modules. When accounts
remain dormant, overpayments are automatically transferred to the Unapplied Statute Expired
Credits file. Activity on the account module causes the credit to automatically transfer back into
the module. The IRS reissued these refunds without first determining whether additional interest
was due.8
For example, a refund was sent to a taxpayer’s address of record (a post office box) more than
20 years ago for an overpayment of $2,000 and interest of approximately $300. The refund
check was returned as undeliverable. The taxpayer took no steps to update his or her address;
although the IRS had no new information, it recently reissued the refund to the same post office
box and improperly included interest of $15,000. The refund has not been returned.9




8
  Reissuance of undeliverable refunds is not prohibited by a statute of limitations if the refunds were claimed timely.
9
  This example is included to demonstrate the effect. Actual numbers were not used in order to protect the
taxpayer’s privacy.
                                                                                                               Page 6
              Processes to Resolve Business Taxpayers’ Undeliverable Refunds
                                 Need to Be Strengthened



The 260 modules identified in our sample included inappropriate
interest totaling almost $2.6 million. Interest on the original          Unnecessary interest of
refunds, which were undeliverable before the balances were               almost $2.6 million may
transferred out of the accounts, totaled $238,000. Fortunately,            have been paid on
about one-half of these refunds have already been returned as               reissued refunds.
undeliverable by the USPS or by the taxpayer. Almost 1,400 of the
modules in our review of undeliverable refunds had credit balances
totaling almost $12 million transferred to the Unapplied Statute Expired Credits file that could be
reissued with additional interest.
In addition, some taxpayers did not receive any interest on their reissued refunds even though
their original refund checks included interest. In 17 of 36 cases for which undeliverable refunds
had been already reissued after the reversal of the credit transfers, and then issued again by the
BMF address cleanup, no interest was paid on the new refunds. Of these 17 taxpayers, 15 were
entitled to at least the interest computed on the original refunds, which totaled about $8,000.

Recommendation
Recommendation 4: The Commissioner, Wage and Investment Division, should coordinate
with the Chief Information Officer to ensure credit balances automatically transferred to the
Unapplied Statute Expired Credits file and subsequent reinstatement of the credit does not cause
an automatic recomputation of credit interest or other transactions that would not otherwise have
occurred.
       Management’s Response: IRS management agreed with the recommendation. New
       programming was implemented in 2004 that was intended to prevent the payment of
       additional interest on reissued undelivered refunds. Programmers are currently working
       to correct the problem with the program.




                                                                                            Page 7
                 Processes to Resolve Business Taxpayers’ Undeliverable Refunds
                                    Need to Be Strengthened



                                                                                                    Appendix I

          Detailed Objective, Scope, and Methodology

The overall objective of this review was to identify the conditions creating BMF credit balance
accounts1 and determine whether there are areas where the IRS could improve resolution of these
accounts. To accomplish our objective, we:
I.       Performed a risk assessment to identify any internal control weaknesses that needed to be
         included in our audit tests.
II.      Identified and analyzed some of the 1.2 million BMF account modules in a credit balance
         status for more than 1 year as of December 2005 by obtaining a database from the
         TIGTA Data Center Warehouse.2
         A. Extracted those 455,822 modules with a credit balance greater than $1,000. From the
            resulting database, we extracted files by the various conditions causing the credit
            balances and by type of return to determine whether that was significant to the
            condition.
         B. Reviewed accounts from the files by condition or type of return on the IRS Integrated
            Data Retrieval System.3 We reviewed a judgmental sample of 102 accounts to
            determine whether there was an obvious issue or trend that warranted further
            investigation.
         C. Assessed the reliability of data while researching the Integrated Data Retrieval
            System. We verified the data against account information and determined the
            information appeared to be complete based on account numbers, type of tax, and tax
            periods.4




1
  The BMF is the IRS database that consists of Federal tax-related transactions for business accounts. The accounts
are made up of modules for each tax period for each type of tax (employment taxes, income taxes on businesses,
excise taxes, estate tax, income taxes for estates and trusts, etc). An account module reflects a credit balance when
payments applied to that type tax and period are greater than the tax, penalties, and interest assessed.
2
  The TIGTA Data Center Warehouse provides data and data access services; centralizes storage, security, and
administration of files; and develops uniform and user-friendly interfaces for users to access data.
3
  This is the IRS computer system capable of retrieving or updating stored information; it works in conjunction with
a taxpayer’s account records.
4
  Upon completion of our tests of data reliability, we deemed the data sufficiently reliable to accomplish the overall
objective of the audit.
                                                                                                              Page 8
              Processes to Resolve Business Taxpayers’ Undeliverable Refunds
                                 Need to Be Strengthened



       D. Identified a potential problem with undeliverable refunds on accounts for which we
          could determine through Integrated Data Retrieval System research that the current
          addresses on the accounts were incorrect.
III.   Determined the extent of the undeliverable refund problem identified.
       A. Determined the universe of 13,955 BMF account modules with a credit balance
          greater than $1,000 with an undeliverable refund. We extracted a database of
          taxpayers’ accounts that reflected an address change. We matched the files to obtain
          a database of 11,363 accounts most likely to include an incorrect or incomplete
          address on IRS records.
       B. Prepared a stratified statistically valid sampling plan with the assistance of a
          statistician contracted by the TIGTA to determine the appropriate total sample size.
          Since 10,267 of the 11,363 were concentrated in corporate income tax returns, estate
          and trust income tax returns, payroll tax returns, and estate tax returns, we extracted
          16 samples totaling 408 account modules from these types of cases. In four samples,
          we selected all account modules in the range. The other 12 were random samples
          selected using a 95 percent confidence level and a precision of +/- 10. We expected
          an error rate of 23 percent for incorrect addresses, most for an incorrect “in care of”
          line for estate and trust income tax returns, because this was where the problem was
          identified. Since the incorrect address issue existed for these returns, it would also be
          a problem for other return types, but we expected a lower error rate for the other
          segments. These samples were selected so that we could project the results of our
          findings to the 10,267 account modules. Appendix IV contains more detailed
          information.
       C. Researched the account modules on the Integrated Data Retrieval System and
          reviewed tax returns for sample cases. We determined, where possible, whether IRS
          records reflected the correct addresses as reported by taxpayers and whether the
          overpayments should have been refunded.
       D. Determined the potential impact of the problems identified.




                                                                                            Page 9
              Processes to Resolve Business Taxpayers’ Undeliverable Refunds
                                 Need to Be Strengthened



                                                                               Appendix II

                 Major Contributors to This Report

Daniel R. Devlin, Assistant Inspector General for Audit (Small Business and Corporate
Programs)
Kyle R. Andersen, Director
Robert K. Irish, Audit Manager
Dolores Castoro, Lead Auditor
Paul R. Baker, Senior Auditor
Bernard F. Kelly, Senior Auditor




                                                                                        Page 10
             Processes to Resolve Business Taxpayers’ Undeliverable Refunds
                                Need to Be Strengthened



                                                                         Appendix III

                        Report Distribution List

Acting Commissioner C
Office of the Commissioner – Acting Chief of Staff C
Deputy Commissioner for Operations Support OS
Deputy Commissioner for Services and Enforcement SE
Commissioner, Small Business/Self-Employed Division SE:S
Deputy Commissioner, Small Business/Self-Employed Division SE:S
Deputy Commissioner, Wage and Investment Division SE:W
Deputy Chief Information Officer OS:CIO
Associate Chief Information Officer, Applications Development OS:CIO:AD
Deputy Associate Chief Information Officer, Applications Development OS:CIO:AD
Director, Corporate Data, Applications Development OS:CIO:AD:CD
Director, Customer Account Services, Wage and Investment Division SE:W:CAS
Director, Submission Processing, Wage and Investment Division SE:W:CAS:SP
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaisons:
       Chief Information Officer OS:CIO
       Commissioner, Small Business/Self-Employed Division SE:S
       Commissioner, Wage and Investment Division SE:W




                                                                                 Page 11
                 Processes to Resolve Business Taxpayers’ Undeliverable Refunds
                                    Need to Be Strengthened



                                                                                                 Appendix IV

                                     Outcome Measures

This appendix presents detailed information on the measurable impact that our recommended
corrective actions will have on tax administration. These benefits will be incorporated into our
Semiannual Report to Congress.

Type and Value of Outcome Measure:
Increased Revenue – Potential; $10.4 million (see page 3).
Funds Put to Better Use – Actual; $2.6 million (see page 6).
Taxpayer Rights and Entitlements – Actual; $8,000 (see page 6).
Taxpayer Rights and Entitlements – Actual; 15 taxpayer account modules (see page 6).

Methodology Used to Measure the Reported Benefit:
Using the TIGTA Data Center Warehouse,1 we extracted the 455,822 BMF cases with credit
balances greater than $1,000 as of December 31, 2005, that were over 52 weeks old.2 From that,
we extracted those with an account freeze type signifying an undeliverable refund. We also
extracted the BMF address changes and matched the resulting files to obtain account modules
with credit balances greater than $1,000, an undeliverable refund, and an address change
(volume 11,363).
Because most (10,267) of these account modules involved corporate income tax, income tax for
estates and trusts, payroll taxes, and estate tax, we took our samples from these segments. We
provided the numbers to the statistician contracted by the TIGTA, who stratified the results and
determined the required sample volumes for 16 statistically valid samples. In four samples, we
selected all the account modules in the segment. The other 12 samples were random samples
selected using a computer program. We used a 95 percent confidence level and a precision of
+/-10. Samples totaled 408 account modules out of the universe of 10,267.




1
  The TIGTA Data Center Warehouse provides data and data access services; centralizes storage, security, and
administration of files; and develops uniform and user-friendly interfaces for users to access data.
2
  The BMF is the IRS database that consists of Federal tax-related transactions for business accounts. The accounts
are made up of modules for each tax period for each type of tax (employment taxes, income taxes on businesses,
excise taxes, estate tax, income taxes for estates and trusts, etc). An account module reflects a credit balance when
payments applied to that type tax and period are greater than the tax, penalties, and interest assessed.
                                                                                                            Page 12
                   Prvcesses to ResoIve Business Taxpay-' Undeliverable R-ds
                                      Need to Be Stmngthened



One of the 16 samples, corporate credit balances greater than $1,000 and less than $20,000.01
(sample of 70 representing 2,709 account modules), was not completed due to time constraints.
.The remaining 338 (408 - 70) sample cases represented 7,558 (10,267 - 2,709) account modules.
We found 22 of the 338 account modules sampled had incorrect credit balances totaling
approximately $3 million due to the following situations:
            Assessments of $1,506,222 had not been posted on 15 modules but should have been.
            The assessment statute of limitations was close to expiring for two of these modules; we
            referred them to the appropriate IRS function for a prompt assessment.
            Credits of $173,905 had been posted on 2 modules but should have been reversed. One
            module had a credit for Federal income tax withheld; the other module had an Advance

        r--
        I
            Earned Income Credit-
                                                           -  -


                                                                                   r
                                                                                   I
                                                                                       z-1
    a       Employment taxes of $1,460,406 had been paid on 3 modules but not reported on the
            applicable tax returns. We were able to determine from other documents these taxes
            were due.
    a       A net amount of $1,100 was due on 2 accounts in which returns for another tax period
            had been posted to the account m o d u l e c


We provided a breakdown of erroneous credit balances by type and stratum to the statistician,
who projected them to the universe from which they were selected and provided us with a total
account module volume and dollar projection by type. The total for the 4 types of tax was
444 account modules (range = minimum 92, maximum 797) with incorrect credit balances
totaling $10,397,854 (range = minimum -$1,969,416, maximum $22,765,123):
The IRS may have inappropriately recomputed interest on some refunds issued from account
modules for which the credit balances had been transferred to the Unapplied Statute Expired
Credits file and subsequentlyreversed. We used the actual volume of accounts in which this
occurred and the difference between the interest on the original refunds and the interest on the
refunds reissued after the reversal of the credits back into the taxpayers' accounts.
            Approximately $2.6 million in interest on 260 modules may have been paid unnecessarily
            on refunds reissued from accounts with previously undelivered refunds because the IRS
            did not determine whether additional interest was actually due.



  The variance, standard error, precision, and standard deviation for types and segments were provided by the
statistician,
                                                                                                           Page 13
              Processes to Resolve Business Taxpayers’ Undeliverable Refunds
                                 Need to Be Strengthened



In cases for which undeliverable refunds had been already reissued after the reversal of the credit
transfers to the Unapplied Statute Expired Credits file, and then issued again by the BMF address
cleanup, no interest was paid on the new refunds.
   •   Of the 17 taxpayers receiving no interest, 15 were entitled to at least the interest
       computed on the original refund, which totaled about $8,000.




                                                                                              Page 14
   Processes to Resolve Business Taxpayers’ Undeliverable Refunds
                      Need to Be Strengthened



                                                     Appendix V

Management’s Response to the Draft Report




                                                           Page 15
Processes to Resolve Business Taxpayers’ Undeliverable Refunds
                   Need to Be Strengthened




                                                        Page 16
Processes to Resolve Business Taxpayers’ Undeliverable Refunds
                   Need to Be Strengthened




                                                        Page 17
Processes to Resolve Business Taxpayers’ Undeliverable Refunds
                   Need to Be Strengthened




                                                        Page 18
Processes to Resolve Business Taxpayers’ Undeliverable Refunds
                   Need to Be Strengthened




                                                        Page 19
